ATTORNEY GENERAL OF WASHINGTON
Solicitor General Division
PO Box 40100 • Olympia WA 98504-0100 • (360) 753-6200

May 5, 2020
Honorable Scott S. Harris
Clerk of the Supreme Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

Living Essentials, LLC; Innovation Ventures, LLC v. State of Washington, No. 19-988

Dear Mr. Harris:
I am counsel of record for Respondent State of Washington in the above-captioned case. A response to the cert
petition, requested by the Court, is currently due May 29, 2020. That date reflects an extension granted on
March 10, 2020.
Pursuant to Rule 30.4, Washington requests an additional 31-day extension to file a brief in opposition, to
June 29, 2020. Counsel for petitioners do not object to the extension.
This request for additional time is made in part to accommodate other concurrent deadlines, particularly the oral
argument in Chiafalo v. Washington, No. 19-465 (U.S.), recently rescheduled for May 13, 2020. The State’s
small team of attorneys that work on U.S. Supreme Court matters will be extremely busy preparing for that
argument. The State also has several other United States Supreme Court cases with pending deadlines,
including a response to the Motion for Leave to File Bill of Complaint in States of Montana and Wyoming v.
State of Washington, No. 22O152 (due June 8, 2020), a brief in opposition in Danielson v. Inslee, No. 19-1130
(due May 15, 2020), and a brief in opposition in Njonge v. Gilbert, No. 19-7426 (due June 15, 2020).
The COVID-19 outbreak has also placed additional and urgent advice and litigation responsibilities on our
office, with a disproportionate percentage falling to our small Solicitor General Division. The challenges have
been magnified by the additional logistical difficulties of having to operate under stay-at-home orders since
March 16, 2020—and for those with young children, the closure of schools and daycares. In particular, counsel
assigned to the brief in opposition in this case devoted significant time in April to emergency state supreme
court proceedings in which the release of thousands of incarcerated individuals was sought. Additional
emergency litigation and client advice is expected, which will also demand immediate attention.
Thank you for your consideration of this request.
Sincerely,
s/ Peter Gonick
Peter Gonick
Deputy Solicitor General
(360) 753-6245
cc:

William S. Consovoy
J. Michael Connolly
Jordan M. Call
Counsel for Petitioners

